           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


       SINGLE AUDIT OF THE
        STATE OF NEW YORK
    FOR THE FISCAL YEAR ENDED
           MARCH 31, 2000

    February 2002   A-77-02-00008




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  m Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  m Promote economy, effectiveness, and efficiency within the agency.
  m Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  m Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  m Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

  m Independence to determine what reviews to perform.
  m Access to all information necessary for the reviews.
  m Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                             .J-" SECV
                                                            (j       :'t.

                                                           ~
                                                           \~     IIIIIII ~t
                                                                "J\-lsT\!.t'-

                                           SOCIAL                SECURITY

                                           Office of the Inspector General
MEMORANDUM
Date; FEB 2 5         2002                                                                            Refer To:

      Ellen Baese
To:   Director

      Management          Analysis   and Audit   Program         Support           Staff

'ram: Assistant Inspector Ge,neral
          for Audit

Subject:Single Audit of the State New York for the Fiscal Year Ended March 31' 2000

      (A-ll    -02-00008)

      This report presents the Social Security Administration's (SSA) portion of the single
      audit of the State of New York for the Fiscal Year ended March 31 I 2000. KPMG,
      Certified Public Accountants, performed the audit. The Department of Health and
      Human Services' desk review concluded that the audit met Federal requirements.

      The New York Disability Determination Services (DDS) performs disability
      determinations under SSA's Disability Insurance (Dl) and Supplement~1 Security
      Income (SSI) programs in accordance with Federal regulations. The DDS is reimbursed
      for 100 percent of allowable costs. The New York Department of Social Services
      (DSS), Office of Temporary and Disability Assistance, is the New York DDS's parent
      agency.

      For single audit purposes, the Office of Management and Budget (OMB) assigns
      Federal programs a Catalog of Federal Domestic Assistance (CFDA) number. SSA's Dl
      and SSI programs are identified by CFDA number 96. SSA is responsible for resolving
      single audit findings reported under this CFDA number.

      The single audit reported         the following   findings                (see Appendix   A):

      .       Expenditures were not properly approved and supported by documentation. The
              corrective action plan indicates procedures are in place to ensure documentation is
              sufficient and that all vouchers are signed prior to submission.

              Cost allocation procedures set forth in 0MB Circular A-87 were not followed. The
              corrective action plan indicates that cost allocation plans have been submitted for
              approval.
Page 2 - Ellen Baese


·   Salaries were incorrectly recorded in the State’s payroll system because of errors in
    employee timesheets, resulting in questioned costs of $4,263. The corrective action
    plan indicates that a process has been established to correctly capture all time and
    leave data for the payroll system.

·   SSA costs of $760,211 were incorrectly charged to non-SSA programs. The
    corrective action plan indicates efforts will be made to charge expenditures to the
    appropriate funding source and necessary adjustments will be made quarterly.

We recommend that SSA:

1. Remind the DDS of the requirements for approving expenditures and for retaining
   supporting documentation.

2. Verify that DDS expenses are being allocated to SSA based on approved cost
   allocation methodologies.

3. Determine the portion of the $4,263 in salary-related questioned costs incorrectly
   charged to SSA and recover the unallowable costs from the DDS.

4. Ensure that the DDS has a system in place for accurately recording and reporting
   expenses.

The single audit also disclosed the following findings that may impact DDS operations
although they were not specifically identified to SSA. I am bringing these matters to
your attention as they represent potentially serious service delivery and financial control
problems for the Agency (see Appendix B).

·   Supporting documentation and records were not maintained for transactions with
    outside vendors.

·   Reviews were not performed to verify the allowability of expenditures charged to
    Federal programs.

·   DSS did not perform pre-settlement reviews of claims submitted for current
    expenditures and prior adjustments.

·   Quarterly expenditure reports did not agree with the State’s Central Accounting
    System.
page 3- Ellen Baese


.Please send copies of the final Audit Clearance Document to Mark Bailey in
 Kansas City and Paul Wood in Baltimore. If you have questions contact Mark Bailey
at (816) 936-5591.




Attachments
 Appendix A
Page 1 of 15
 Appendix A
Page 2 of 15
 Appendix A
Page 3 of 15
 Appendix A
Page 4 of 15
 Appendix A
Page 5 of 15
 Appendix A
Page 6 of 15
 Appendix A
Page 7 of 15
 Appendix A
Page 8 of 15
 Appendix A
Page 9 of 15
  Appendix A
Page 10 of 15
  Appendix A
Page 11 of 15
  Appendix A
Page 12 of 15
  Appendix A
Page 13 of 15
  Appendix A
Page 14 of 15
  Appendix A
Page 15 of 15
Appendix B
Page 1 of 5
Appendix B
Page 2 of 5
Appendix B
Page 3 of 5
Appendix B
Page 4 of 5
Appendix B
Page 5 of 5
                   Overview of the Office of the Inspector General
                                         Office of Audit

The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress, and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency.


                                Office of Executive Operations

The Office of Executive Operations (OEO) provides four functions for the Office of the
Inspector General (OIG) – administrative support, strategic planning, quality assurance, and
public affairs. OEO supports the OIG components by providing information resources
management; systems security; and the coordination of budget, procurement,
telecommunications, facilities and equipment, and human resources. In addition, this Office
coordinates and is responsible for the OIG’s strategic planning function and the development and
implementation of performance measures required by the Government Performance and Results
Act. The quality assurance division performs internal reviews to ensure that OIG offices
nationwide hold themselves to the same rigorous standards that we expect from the Agency.
This division also conducts employee investigations within OIG. The public affairs team
communicates OIG’s planned and current activities and the results to the Commissioner and
Congress, as well as other entities.


                                     Office of Investigations

The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.


                               Counsel to the Inspector General

The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
